        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Audit Report
The Department of Energy Vehicle
Technologies Program's $135 Million
in Funding to Ecotality, Inc.




OAS-RA-13-29                               July 2013
                                  Department of Energy
                                    Washington, DC 20585
                                          July 25, 2013

MEMORANDUM FOR THE SECRETARY


FROM:                     Gregory H. Friedman
                          Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of Energy Vehicle
                         Technologies Program's $135 Million in Funding to Ecotality, Inc."

BACKGROUND

The Department of Energy's Vehicle Technologies Program aims to decrease U.S. oil
dependence by developing and deploying advanced transportation technologies. Historically,
this Program had been allocated about $300 million annually. The scope of the Program was
significantly increased when it received approximately $2.8 billion in funds as part of the
American Recovery and Reinvestment Act of 2009.

Over a 6-year period, the Program awarded three financial assistance agreements to subsidiary
companies of Ecotality, Inc. The Ecotality subsidiaries (referred to as Ecotality throughout this
report), received about $35 million from 2005 to 2011, for two multi-year projects to test and
evaluate advanced technology vehicles. In 2009, Ecotality was awarded a Recovery Act grant
for about $100 million for electric vehicle demonstration and infrastructure evaluation. The
Recovery Act award was intended to conduct the largest U.S. demonstration to date of electric
vehicles and related infrastructure and to gather data to guide future widespread electric vehicle
deployment. For this award, Ecotality planned to install three different types of charging stations
(two commercial and one residential) for electric vehicles in various geographical regions around
the country. Consumers and businesses that enrolled in the project received a charging station
paid for through the grant as well as a credit toward installation costs.

Because of the number of awards, level of funding, and related inquiries, we initiated this audit
to determine whether the Department had effectively awarded and managed funding to Ecotality.

RESULTS OF AUDIT

Our review identified opportunities to improve the effectiveness of the Department's
administration of its awards to Ecotality. We noted that the Department had not:

    • Adequately documented its consideration of alternatives before making significant
      changes to Ecotality's Recovery Act project. Faced with less than expected demand for
      electric vehicles, Department officials told us that they added five additional regions to
      the project in an effort to meet overall infrastructure targets. While the Department
                                                2


       asserted that this change helped ensure that the project would meet its goals, we noted
       that it resulted in increased travel and administrative costs. As a consequence, the
       Department subsequently found it necessary to reduce installation incentives. In
       addition, the overall number of charging stations planned for installation decreased by
       1,760 units and data collection requirements for certain units were significantly reduced.
       Because the Department's consideration of alternatives to the actions taken had not
       always been documented, we could not determine whether these decisions were in the
       best interest of project goals and U.S. taxpayers.

    • Ensured that the selection of commercial charging station locations was based on a
      process that advanced the goals of the project. Program officials were aware that a
      number of commercial charging stations were poorly utilized. Yet, they had not required
      Ecotality to adjust its installation plan to account for poor performers as the project
      progressed. The Department asserted that significant data needed to be collected before
      conclusions were reached about the effectiveness of specific locations. On its face, this
      appeared to be a logical position. Yet, the rationale did not appear to be applied to
      decisions to add regions to the project and modify installation patterns for other
      commercial chargers.

    • Ensured that Ecotality's awards were finalized in a timely manner. Although specific
      timeframes are not stipulated in Federal regulations, good business practices dictate that
      the final terms of government financial assistance awards be finalized or completed
      promptly. We found, however, that it took nearly 3 years to finalize Ecotality's Recovery
      Act award and nearly a year and a half to finalize its 2011 award for vehicle testing. The
      Department stated that a significant portion of the Recovery Act award delays were
      attributable to factors that were outside its control, most notably, an accounting system
      review and project adjustments requested by Ecotality. While we do not dispute that
      certain factors were not directly manageable by Program officials, others, including
      within-Program prioritization of work efforts, were. We concluded that these delays
      potentially put the Government at a disadvantage in terms of management of costs
      incurred and cost-share allowed in that a significant portion of the awards had been
      expended/claimed before finalization of all terms and conditions occurred. As such, it
      would have been difficult to disallow expenditures and proposed cost-share contributions
      had any been found to be unallowable after the fact.

Further, we received inquiries from several sources expressing concern that the cost-share
permitted by the Department for this project was inappropriate. We did not find that the cost-
share concept was prohibited under Federal regulations. We did conclude, however, that the
cost-share arrangement was unusual and that it provided Ecotality with a very generous cost-
share credit. In brief, the Department approved $69 million of third party, in-kind contributions
for vehicle and internet usage as part of Ecotality's cost-share commitments. The vehicle cost-
share essentially amounted to the entire value of the consumer-purchased vehicles, over $550 per
month for each month the consumer participated in the project. While third party in-kind
contributions are a recognized method of satisfying cost-share requirements, regulations
specify that such contributions be directly proportional to the value received. In this case, the
project sought to use only data on vehicle use and charging patterns collected through
                                                 3


commercial and residential stations. The actual purchase price of the vehicle was borne entirely
by the consumer, and vehicles were purchased to satisfy the personal transportation needs of
consumers, not to advance the project.

We recognize that benchmarks for third party, in-kind contributions are difficult to develop.
However, permitting cost-share based on the entire purchase price of the vehicle, as was done in
this case, appeared excessive. We were unable to determine the impact denial or additional
reductions in the proposed cost-share would have had on the project. But, based on the totality
of the circumstances, it appeared unlikely that the project would have been consummated unless
a cost-share arrangement of this nature had been in place. This raised public policy issues that
were beyond the scope of our review.

During the course of the audit, Department officials told us that they analyzed Ecotality's
proposal and considered a number of factors prior to permitting the cost-share requested by
Ecotality. Officials noted that they effectively apportioned certain cost elements between
Ecotality and the Government and had denied requested cost-share elements in several areas.
Program officials also indicated that the cost sharing arrangement had been reviewed by a
price/cost analyst and approved by a contracting officer.

However, after reviewing a draft of this report, management stated that it would develop third-
party cost-share guidance to ensure that future in-kind cost-share allowances are not only in line
with existing policies but are also more carefully scrutinized in terms of the overall value to the
Government. This will include the reasonableness of both the source and amount of in-kind
cost-share.

The audit did not identify any issues with the Department's development and application of
procedures for the solicitation, merit review, and selection of Ecotality. Although finalization of
the award was not timely, the Department, to its credit, had implemented a compensating control
to manage costs during the period between award of the grant and the time it was finalized.
Notably, the Department had limited payments to Ecotality to reimbursements for actual work
completed during that period. Based on our review of a sample of work, we also found that
claimed installations had actually been completed and appropriately corresponded to charges
under the award.

The Department awards and administers a considerable amount of funding to private sector
entities through a variety of instruments. To achieve success, high quality project management
and program administration practices need to be in place and operating as intended. Further,
decision-making processes need to be appropriately justified and documented to render the
effects fully transparent. To address the issues we observed, we made several recommendations
designed to improve the management of this and similar projects.

OTHER MATTERS

Prior to and during the course of conducting this review, we received several complaints relating
to alleged overcharging for charging station installations provided through the project. Our
examination of these allegations and results are discussed in Appendix 1 of this report.
                                                 4



MANAGEMENT REACTION

Management concurred with our recommendations and indicated that it had completed or
initiated corrective actions. We found that reported corrective actions were, for the most part,
responsive to our recommendations.

Management's comments and our responses are summarized and more fully discussed in the
body of the report. Management's comments are included in Appendix 4.

Attachment

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Assistant Secretary for Energy Efficiency and Renewable Energy
    Chief of Staff
REPORT ON THE DEPARTMENT OF ENERGY VEHICLE
TECHNOLOGIES PROGRAM'S $135 MILLION IN FUNDING TO
ECOTALITY, INC. ____________________________________________


TABLE OF
CONTENTS

Funding to Ecotality

Details of Finding .......................................................................................................................... 1

Recommendations and Management Reaction .............................................................................. 7

Auditor Comments ......................................................................................................................... 8


Appendices

1.    Other Matters .......................................................................................................................... 9

2.    Objective, Scope and Methodology ..................................................................................... 10

3.    Prior Reports......................................................................................................................... 12

4.    Management Comments ....................................................................................................... 13
THE DEPARTMENT OF ENERGY VEHICLE TECHNOLOGIES
PROGRAM'S $135 MILLION IN FUNDING TO ECOTALITY, INC.

Management of Awards to Ecotality, Inc.

The Department of Energy's (Department) Vehicle Technologies Program made several awards
to subsidiaries of Ecotality, Inc. (Ecotality), a company that designs, manufactures, tests and
works to commercialize charging and energy storage technologies. The Program awarded
Ecotality about $35 million from 2005 to 2011, for two multi-year projects to evaluate and test
specific vehicles. Under the terms of the awards, Ecotality was to contribute a minimum 20
percent of the cost of the project (cost-share). Further, Ecotality was also awarded an American
Recovery and Reinvestment Act of 2009 (Recovery Act) grant for about $100 million, with a 50
percent cost-share, to deploy and analyze charging infrastructure for electric vehicles in various
locations. Although there is no clear legislative history on the meaning behind requiring
recipients to provide cost-share, the concept is generally understood to mitigate risk, help
leverage Federal investments, and ensure that recipients have some "skin in the game" in these
kinds of transactions.

Ecotality's Recovery Act grant was awarded through the Department's Transportation
Electrification solicitation. This solicitation included four areas of interest related to projects to
accelerate the market introduction and penetration of advanced electric drive vehicles.
Ecotality's project was designed to meet Presidential initiatives and Department goals to
accelerate the development and production of various electric vehicle systems to reduce
petroleum consumption. Ecotality's proposal stated that the project would represent the largest
deployment of electric drive vehicles and the largest deployment of vehicle infrastructure ever
undertaken.

The objective of Ecotality's grant was to develop, implement, and study techniques for
optimizing the effectiveness of infrastructure supporting widespread electric vehicle deployment.
Although subsequently modified, Ecotality originally planned to develop a mature infrastructure
in five metropolitan areas to ensure accessibility and eliminate anxiety associated with running
out of energy. Specifically, the project would have installed fast charging equipment every 10
miles. Originally, the award included infrastructure targets totaling 11,210 charging stations for
both residential homeowners and commercial businesses enrolled in the project (participants).
When the project was awarded about $14 million in additional government funding, these targets
increased to include 14,960 charging units.

Three types of charging infrastructure were installed through the Recovery Act project. Level 2
units, capable of charging a vehicle in about 4 to 6 hours, were installed in both residential and
commercial locations and Fast Chargers, which can charge an electric vehicle in about 30
minutes, were installed at commercial locations and along two major transportation corridors.
The chargers were developed and manufactured by Ecotality.

Participants were to directly benefit from the project and, in turn, were to provide data that could
be used by Ecotality to evaluate electric vehicle usage patterns. Under the original approach for
the project, the Government was to provide residential participants with a charging station and a
$1,200 credit toward its installation in exchange for allowing Ecotality to draw data on how
their charging unit or electric vehicle were being used. Commercial businesses received



Page 1                                                                            Details of Finding
Level 2 and/or Fast Charger stations and credit towards installation. Data collected through the
project was to be analyzed to evaluate and identify methods for improving the effectiveness of
charging infrastructure as well as to develop lessons learned to assist in the electric vehicle
market as it matured. Reports documenting the results of the data gathering and analyses were to
be distributed to both the Department and the public.

Results of Audit

We found that the Department had developed and followed procedures for the solicitation, merit
review, and selection of Ecotality. Our review, limited to an examination of available award
documentation, disclosed no issues with the selection of Ecotality for the project. We found that
several aspects of the management and administration of Ecotality's awards by Federal officials
charged with establishing award conditions and routine oversight of the project could have been
improved. These weaknesses likely impacted project objectives.

                                      Project Management

The Department and Ecotality had not always effectively managed the Recovery Act award.
Due to a less than expected demand for electric vehicles and the failure of anticipated demand
for chargers to materialize, the Department and Ecotality made various decisions to modify the
project plan with a goal of meeting installation targets. However, neither the Department nor
Ecotality had adequately documented its consideration of alternatives or the impact on award
objectives before making significant changes to its Recovery Act award. Specifically:

    • Decisions to add regions may have impeded project goals. Originally, the project was to
      encompass five regions, with two regions added with the $14 million in additional
      funding. Over the course of the effort and because the demand for electric vehicles was
      much less than originally anticipated, the Department added five regions to meet
      infrastructure targets. While that decision expanded the geographic regions in which
      chargers would be deployed, it resulted in the elimination of what we considered to be a
      key element to successful deployment of a mature and functional charging infrastructure.
      Specifically, under the modified approach Ecotality was no longer required to install Fast
      Chargers in a grid such that each of these units was accessible within a 10-mile range.
      Department officials stated that deployment in this type of configuration would have
      reduced the likelihood of utilization, a factor that was not documented in the technical
      evaluation. Changing this approach, however, altered the original intention to overcome
      consumers' driving range anxiety. In addition, the methodology regarding increasing
      utilization was not applied to the other type of commercial stations.

    • As regions were added, infrastructure targets were lowered from 14,960 to 13,200 units.
      Furthermore, while the Department asserted that adding regions helped ensure the project
      would meet its goals and objectives, this strategic shift increased travel and
      administrative costs for the award. To compensate for increased costs associated with the
      change, the Department subsequently decided to lower the residential installation
      incentive for participants from $1,200 to $400 per unit. The Department stated that the




Page 2                                                                        Details of Finding
       effects of adding regions and lowering incentives on the rate of participation had been
       considered and discussed with Ecotality. Such analysis, however, was not documented
       and could not be validated. Department officials also stated that Ecotality had
       significantly exceeded the residential participation goals in the project and participation
       had not been adversely affected by the incentive reduction. However, ultimately the
       number of charging stations installed through the project was reduced, which was the
       basis of the award. Beyond the information regarding participation, the lack of analysis
       by the Department or Ecotality prevented us from determining whether the reasoning
       behind these changes was sound and in the best interest of U.S. taxpayers.

    • Changes to the overall deployment plan and extensions of the project's period of
      performance may have impacted the quantity and perhaps the overall quality of usage
      data gathering and analyses – one of the primary purposes of the project. Initially, the
      milestone for completing infrastructure deployment was December 2011, with data
      collection and the award ending in April 2013. In order to provide time for installation of
      the charging stations in additional regions and compensate for poor market conditions,
      the Department extended the infrastructure deployment through September 2013, with
      the project ending in December 2013. Because of this change, the quantity and
      distribution of data originally planned for collection, which consisted of at least 16
      months of data from each installed unit, was altered. Based on Ecotality's revised
      installation schedule, only about a year or less of data would be collected from about
      3,300 of 13,000 installed Level 2 units, or about 25 percent of the units. Further, for the
      Fast Chargers, which were originally scheduled to have been installed by June 2011,
      about 70 percent remained to be installed during 2013. Department officials told us that
      Ecotality's revised schedule would extend the reporting time for units that had been
      installed earlier in the project and that the reduced data from some stations would not
      compromise the analyses to generate lessons learned and best practices for future electric
      vehicle deployment. However, the Department had not formally analyzed the effects of
      the decreased data collection and analysis period for a significant percentage of installed
      units – those installed near the end of the project. Therefore, we could not determine the
      overall effects and whether the change would skew data analyses.

In another case, the Department and Ecotality decided not to make changes to the plan that may
have improved project performance. Specifically, we found:

    • Utilization of many charging stations located at commercial sites was limited. Ecotality
      had analyzed data from individual charging units and qualified them as high, medium or
      poor performers based on usage per week. As of October 2012, poor performers
      represented about 78 percent of units in Memphis, 74 percent of units in Washington,
      DC, and around 60 percent of units in Phoenix, Tucson, Knoxville, and Dallas. The
      Department stated that utilization was discussed with Ecotality, including examples of
      either very high or low performing charge stations that may have identified issues or
      benefits for a particular location. Program officials, however, did not require Ecotality to
      adjust its commercial installation plan to account for identified poor performers. The
      Department told us that it did not do so because analyzing commercial




Page 3                                                                         Details of Finding
       installation locations was Ecotality's responsibility, and it recognized the importance of
       allowing the evaluation to be performed and for significant data to be gathered before
       drawing firm conclusions. The stated rationale from Department officials in this
       particular area appeared to be inconsistent with other actions taken with regard to the
       project. The Department had been actively involved in modifying the project plan and
       adding regions – an initiative that significantly increased startup costs and project
       management difficulties associated with geographic expansion. Furthermore, the
       Department stated that the orientation of Fast Chargers was adjusted to increase its
       likelihood of utilization.

                                     Award Administration

The Department had not always ensured that Ecotality's awards were finalized in a timely
manner. In particular, the Department:

    • Significantly delayed finalizing Ecotality's awards, a problem that may have added to
      uncertainty about the project's scope and cost. Although it was originally planned for
      completion within 120 days, it took nearly 3 years to finalize the terms and conditions of
      the Recovery Act award. In addition, by the time the award was finalized in August
      2012, Ecotality had already spent about $70 million of its $100 million grant. An
      additional $26 million award made in 2011 for vehicle testing also was not finalized until
      February 2013. Notably, financial assistance regulations do not stipulate a maximum
      amount of time or funding limitations for finalizing awards. Also, as an offsetting
      control, the Department required Ecotality to submit supporting documentation for
      reimbursements through these awards. Department officials attributed delays with the
      Recovery Act award to items outside their control, including an accounting system
      review and project adjustments requested by Ecotality. Once Ecotality had spent nearly
      70 percent of its Recovery Act funding, however, it would have been difficult to disallow
      cost-share contributions or direct expenditures if these items were later deemed to be
      unallowable by the Department.

Originally, Ecotality proposed procuring residential Level 2 charging units. However, because
there was not a unit available that met project requirements, charger and network development
costs were approved for Ecotality. However, the Department:

    • Had not requested cost analyses of changes for Ecotality's charging units. Once Ecotality
      was approved to fabricate Level 2 units, the cost estimate per budgeted unit increased by
      about 57 percent over the course of the project. We also noted that Ecotality had not
      been required to fully analyze cost changes for Fast Chargers, which increased by about
      140 percent per budgeted unit over the course of the project. Despite these significant
      changes, the Department had not requested or reviewed a formal cost analysis from
      Ecotality. Department officials stated that they were aware of updated costs for the
      charge stations early in the deployment phase and finalizing the project budget
      constituted their formal review. However, charging stations were already developed and
      deployed when the award was finalized in August 2012. Based on the significance of
      these changes, we believe this type of review was necessary to justify the effect on the
      project.


Page 4                                                                         Details of Finding
Additionally, we received inquiries from several sources expressing concern that the cost-share
permitted by the Department for this project was inappropriate. While we did not specifically
identify evidence indicating that the cost-share was prohibited under Federal regulations, we did
note that the amount of cost-share permitted appeared to be fairly generous. Federal regulations
permit recipients to use third party, in-kind contributions to meet cost-share requirements
established in its financial assistance agreement with the government. For Ecotality's Recovery
Act award, the Department approved about $69 million of Ecotality's $110 million required cost-
share for participants' vehicle and internet usage. Specifically, the Department approved over
$550 per month for each month a consumer's vehicle participated in the project, a value based on
the entire purchase price of participating electric vehicles. The actual purchase price of the
vehicle was borne entirely by the consumer and not Ecotality. The Department also approved a
$17 per month value associated with internet paid for and provided by consumers. This amount
was based on the avoided cost of providing an internet connection at certain participants'
locations. While in-kind contributions that are directly proportional to value received are
allowable, the vehicles and internet connections were purchased to satisfy personal needs of
consumers, not solely for the project.

Department officials told us that they analyzed Ecotality's proposal and considered a number of
factors prior to permitting the cost-share requested by Ecotality. Specifically, during finalization
of the award, the Department had disallowed a portion of Ecotality's proposed cost-share for
monthly vehicle mileage as well as insurance and licensing costs. Officials also noted that they
effectively apportioned certain cost elements between Ecotality and the Government, and the
cost-share arrangement had been reviewed by a price/cost analyst and approved by a contracting
officer.

While we understand the unique nature of in-kind contributions and as such benchmarks would
be difficult to develop, in our judgment, the amount allowed was overly generous. Considering
that only usage data was essential for the project, permitting cost-share based on the entire
purchase price of the vehicles involved and consumers' existing internet connections appeared to
be excessive. We were unable to determine the impact denial or additional reductions in the
proposed cost-share would have had on the project.

However, based on the totality of the circumstances, it appeared unlikely the project would have
been consummated unless a cost-share arrangement of this nature had been in place.
Specifically, without the allowance of such third party, in-kind cost-share valuations, Ecotality
would have encountered a significant financial burden. This raises public policy issues, which
were beyond the scope of this review.

                                         Project Decisions

In addition to the issues previously outlined in our report, poor electric vehicle market conditions
likely contributed to the problems we identified. At the time of the Recovery Act award, the
Department recognized that achievement of infrastructure targets was an aggressive goal given
market conditions. In fact, the Department originally established budget periods to evaluate the
project's progress, but these technical decision milestones were later eliminated. Transportation




Page 5                                                                          Details of Finding
electrification and reducing petroleum consumption was, and is, an important part of the
Department's mission, however, and likely affected decisions relating to Ecotality. Furthermore,
Ecotality's proposal was attractive in that it included large-scale vehicle infrastructure
deployment, and was one of the only awardees with this type of project.

Department officials told us that the award took a long time to finalize due, in part, to delays in
obtaining a review of Ecotality's accounting system by the Defense Contract Audit Agency and
the overall workload of the Program resulting from the Recovery Act. Market factors – less than
anticipated demand for electric vehicles – also likely impacted finalizing the grant. Officials
indicated that they took action to modify the overall approach and extended project deadlines in
response to changing conditions.

While the delays may have resulted in greater uncertainty for consumers and for the project as a
whole, we could not identify a specific, cost-related impact. In fact, we noted that Federal
officials took action to monitor costs incurred by Ecotality during the period before the grant was
finalized by limiting payments to reimbursements for work completed. Our review of a sample
of work for which Ecotality was reimbursed generally revealed that installations had been
completed and corresponded to charges claimed under the award.

Finally, while a number of Federal regulations exist regarding the allowability of third party, in-
kind cost-share contributions, we noted that the Program had not issued implementation
guidance in this area. Officials told us they believe their policies and procedures for evaluating
third party, in-kind cost-share contributions are adequate. These policies and procedures,
however, lack guidance specific to how the Department should review and value third party in-
kind cost-share contributions in determining allowability. Existing policies were not effective in
preventing what we consider to be the allowance of an overly generous cost-share for this
project. The lack of such guidance may also have contributed to certain inconsistencies in
reviews of in-kind contributions that we observed. For example, while a large percentage of
third party contributions were considered a concern in one award, this factor was not considered
in another award.

                                         Program Impact

The Department cannot demonstrate that it made informed decisions that had not adversely
affected project objectives. Although the Department stated that award files included the
rationale for changes to the project, we identified multiple examples in which analyses and
documentation did not include the reasoning provided by the Department through conversations
and contact. While we acknowledge that the Department had maintained and archived award
documentation, an independent reviewer cannot understand the rationale behind important
decisions made by Department officials, as required by Government internal control standards.

Additionally, the Department's weaknesses in oversight of administrative aspects of Ecotality's
awards may have led to funding items that were not directly attributable to the grant. In
particular, by not finalizing the awards in a timely manner, the Department was at increased
risk of incurring costs that were unreasonable in relation to the scope of work and utilizing
outside sources of funding that were unallowable.



Page 6                                                                         Details of Finding
Because of the importance of cost-share, it is imperative that the Department evaluates these
contributions consistently to ensure fair and equitable approvals amongst different recipients and
awards. Applying and approving generous valuation techniques for cost-share contributions sets
a precedent that may expose the government to increased risk for future cost-shared awards.
Further, blurring the lines of allocability and allowability moves cost-share contributions in a
direction that diminishes the understood intent of cost-share.

RECOMMENDATIONS

Weaknesses in project management and award administration expose the Program and the
Department to increased risk of fraud, waste and abuse. In order to improve project management
and award administration, we recommend that the Assistant Secretary for Energy Efficiency and
Renewable Energy:

    1. Evaluate processes for monitoring awards to ensure changes to projects are supported and
       documented;

    2. Review the process for finalizing awards, including the need to document the rationale
       for necessary exceptions; and

    3. Revise guidance on third party, in-kind cost-share contributions to include details on how
       these costs should be evaluated and determined to be allowable.

MANAGEMENT REACTION

Management concurred with our recommendations and indicated that it had completed or
initiated certain corrective actions. Regarding Recommendation 1, management stated it had
reviewed the processes for monitoring grants and verified that all award documentation had been
archived in the Department's system. It was noted that the process included a comprehensive
due diligence review and typically includes detailed discussions to clarify or justify changes
requested. Management commented that it does not have a process in place to request, collect,
or archive historical data or information associated with the development and evaluation of
alternatives by a recipient that occur prior to notifying a Contracting Officer in writing of a
proposed project change. In addition, officials stated that this type of analysis is not required to
be documented, and it is unlikely that recipients would be willing to provide this type of internal
formulation and assessment of alternatives to the Department.

In regards to Recommendation 2, management commented that it had analyzed its process for
finalizing awards and initiated efforts to create standardized timeframes for negotiation and
finalization. Further, officials stated that they began a comprehensive assessment of grants
management procedures in April 2012, which included developing standard operating
procedures to streamline business operations and improve the effectiveness of project
management. Management also noted that as part of a deployment planned for Fiscal Year 2014
on funding opportunity announcement management, standard timelines for award and other
activities are included.



Page 7                                         Recommendations and Management Reaction
Department officials also concurred with Recommendation 3, noting that third-party cost-share
should be thoroughly scrutinized and guidance would be developed. Officials commented that
this guidance would ensure future in-kind cost-share allowances are not only in line with existing
policies but are also more carefully scrutinized in terms of the overall value to the government
and reasonableness of both the source and amount of in-kind cost-share.

AUDITOR COMMENTS

While we acknowledge management's position on Recommendation 1 that award changes were
documented in the award system, we remain concerned about the lack of documentation on the
Department's deliberative process for making project decisions. We identified instances where
only the basic contract modifications representing the "final" decisions were included in the
award files, and documentation of discussions/deliberations and the Program's analysis of
alternatives had not been included. In the current resource-constrained environment,
transparency and accountability for the Department's decisions takes on a greater degree of
importance. As such, comprehensive assessments of alternatives, even internal considerations by
recipients of Federal funding and the Department, are an important part of analyzing the
underlying rationale for and supporting changes to awards. Furthermore, improving project
management processes in this way would provide greater assurance for both independent
reviewers and U.S. taxpayers. Consequently, we are concerned that the Department considers
Recommendation 1 closed without further action and request the Department consider additional
actions to implement our recommendation. Management's planned actions were responsive to
Recommendations 2 and 3.

Management's comments are included in Appendix 4.




Page 8                                                                      Auditor Comments
Appendix 1

                                       OTHER MATTERS

The Office of Inspector General received various complaints regarding overbilling for
installations of electric vehicle charging stations included in a subsidiary of Ecotality, Inc.'s
(Ecotality) American Recovery and Reinvestment Act of 2009 (Recovery Act) project.
Specifically, the complaints alleged that a contractor installing electric vehicle charging units for
Ecotality as part of the Recovery Act project overcharged participants and the Department of
Energy (Department) based on the scope of work performed, improper billing, and price
gouging. While we discovered information that could have understandably led to concerns with
installation charges, the allegations were essentially unsubstantiated. We did, however, identify
a form of "cost layering" that may have led to some of the overbilling concerns we received.

Specifically, we observed cost layering in the price that was billed to participants for charger
installation. During our review, we selected a sample of 32 installation packages from the
contractor alleged to have overcharged. Our review consisted of an examination of the actual
labor paid for charger installations and the amount billed by the installing subcontractor to the
contractor Ecotality employed to manage installation nationwide. We also reviewed the amount
charged by the contractor managing the installation effort and identified the percentage markup
applied to that billing. Based on this sample, we noted that the contractor increased quotes from
their subcontracted installers by an average of about 40 percent. Additionally, installer quotes
received by the contractor were nearly six times, on average, the actual wages paid for
installation labor. These increases varied for each job, and we were unable to determine the
individual percentage that was attributable to business costs versus profit margins. Because the
charger was provided to the participant by the Government free of charge, virtually all of the
markups appeared to be on labor costs.

The Department also received some of the complaints we reviewed pertaining to this contractor
and concluded that costs were reasonable. In reaching its conclusion, the Department noted that
prices varied based on the nature of each installation job as well as significant costs associated
with Davis-Bacon wages and reporting required by the Recovery Act. The Department
conducted a due diligence review on installation costs but had not requested the detailed labor
costs we obtained for this contractor. Therefore, its review was based on the total charge for the
installation, after markups were applied, and would not necessarily have disclosed the cost
layering we identified. The Department, however, did note that it considered the impact of
potential overcharging to be mitigated by the notice requirements used by the installation
company. Specifically, participants were presented with the total cost of the installation prior to
completion and could opt out of the program without penalty if they chose to do so.

The documentation we reviewed did not allow us to determine whether the level or amount of
cost layering observed constituted price gouging. The practices we observed also appeared to be
similar to other consumer, retail types of transactions where both the provider (actual installer)
and the installation contractor applied markups. According to Federal regulations, vendors are
not precluded from charging fee or profit, and these amounts were not excluded or limited within
Ecotality's agreement with this contractor. Installation prices also varied due to the number,
geographical locations, and cost structures of charging station installers. In addition, as noted by
the Department, wage and reporting requirements specific to this project would affect the level
of costs incurred by the contractors.

Page 9                                                                               Other Matters
Appendix 2


OBJECTIVE

The objective of this audit was to determine whether the Department of Energy (Department)
had effectively awarded and managed funding to Ecotality, Inc. (Ecotality).

SCOPE

This audit was performed between October 2012 and July 2013, at the Department's
Headquarters in Washington, DC. In addition, we conducted site visits to Ecotality and one of
its contractors.

METHODOLOGY

To accomplish the objective, we:

    • Obtained and reviewed relevant laws and regulations related to the financial assistance
      awards.

    • Reviewed the funding opportunity announcement, merit review information, and
      selection documentation.

    • Reviewed award files and analyzed the implementation of requirements included in the
      terms and conditions of the awards for three projects.

    • Conducted onsite testing of books and records, including invoice review.

    • Requested and reviewed a judgmental sample of 32 installation packages to determine
      how costs were adjusted across contractor levels. This sample was selected to include the
      most recently completed jobs at the time of our site visit. Because the sample was
      judgmental, we could not project to the population.

    • Reviewed cost-share documentation and evaluations completed by Department
      personnel.

    • Interviewed project officers, contracting personnel, and Department officials.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. Accordingly, we assessed significant
internal controls and compliance with laws and regulations to the extent necessary to satisfy the
audit objective. In particular, we assessed the Department's implementation of the GPRA
Modernization Act of 2010 and determined that it had established performance measures for the
management of the Program. Because our review was limited, it would not necessarily have



Page 10                                                   Objective, Scope and Methodology
Appendix 2 (continued)

disclosed all internal control deficiencies that may have existed at the time of our audit. Finally,
we conducted an assessment of computer-processed data relevant to our audit objective and
found it to be reliable.

An exit conference was held with the Department on July 19, 2013.




Page 11                                                     Objective, Scope and Methodology
Appendix 3

                                        PRIOR REPORTS

    •     Special Report on The Department of Energy's Management of the Award of a $150
          Million Recovery Act Grant to LG Chem Michigan Inc. (OAS-RA-13-10, February
          2013). The audit revealed that the Department of Energy (Department) had not
          managed work performed under the grant to LG Chem Michigan Inc. effectively.
          Despite expenditures of $142 million in American Recovery and Reinvestment Act of
          2009 (Recovery Act) funds, Ecotality, Inc. had not yet achieved objectives in its project
          plan related to the production of battery cells and jobs created. In addition, LG Chem
          Michigan Inc. inappropriately claimed, and was reimbursed for, labor charges for
          activities that did not benefit the project. These issues occurred, in part, due to
          monitoring and oversight deficiencies.

    •     Audit Report on Follow-Up on the Department of Energy's Implementation of the
          Advanced Batteries and Hybrid Components Program Funded under the American
          Recovery and Reinvestment Act (OAS-RA-L-12-05, July 2012). This audit noted
          opportunities for the Department to improve its administration of the Advanced
          Batteries Program. Specifically, the Department could better define regulations
          governing the retention of documentation supporting procurement decisions, ensure
          recipients adequately safeguard equipment purchased with Federal funds and obtain
          and review required audit reports to ensure the sufficiency of internal controls and
          compliance with laws and regulations.

    •     Special Report on The Department of Energy's Transportation Electrification Program
          (OAS-RA-12-11, May 2012). At the time of the review, the Department had neither
          obtained nor reviewed required financial and compliance audits of the Transportation
          Electrification Program's six for-profit recipients and their reports on costs incurred
          under the grants. Specifically, the Department had not ensured that recipients had
          completed independent audits as required by Federal regulations. The Department had
          also not requested and reviewed cost reports to determine the allowability of costs as
          required by Federal regulations. Department officials began to take action to address
          identified issues. Therefore, no formal recommendations were made in the report.

    •     Audit Report on The Department of Energy's Clean Cities Alternative Fuel Vehicle
          Grant Program Funded under the American Recovery and Reinvestment Act (OAS-
          RA-12-12, May 2012). The Department had not always effectively managed the use of
          Recovery Act funding and other post-award aspects of the Clean Cities Program.
          Inadequate policies and procedures and ineffective oversight contributed to the grant
          administration issues identified. The Department relied, in large measure, on Clean
          Cities grant recipients to disclose conflicts of interest and to ensure costs incurred were
          reasonable without adequately monitoring this information. In total, about $5 million
          in direct payments to recipients and nearly $2 million in cost-share contributions
          claimed by recipients were questioned. Recommendations were made to the
          Department to proactively evaluate and address the significant risks inherent in
          overseeing a complex program involving numerous coalitions.


Page 12                                                                               Prior Reports
Appendix 4




Page 13      Management Comments
Appendix 4 (continued)




Page 14                  Management Comments
Appendix 4 (continued)




Page 15                  Management Comments
                                                                 IG Report No. OAS-RA-13-29

                           CUSTOMER RESPONSE FORM
The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

   1. What additional background information about the selection, scheduling, scope, or
      procedures of the audit or inspection would have been helpful to the reader in
      understanding this report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clear to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report that would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
effective as possible. Therefore, this report will be available electronically through the Internet at the
following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

       Your comments would be appreciated and can be provided on the Customer Response Form.
